U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Braulio Perez v. United States of America,
S.Ct. No. 20-8421
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 22,
2021, and placed on the docket on June 25, 2021. The government’s response is due on July 26,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 25, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8421
PEREZ, BRAULIO
USA

ROBIN J. FARNSWORTH
ASSISTANT FEDERAL PUBLIC DEFENDER
ONE EAST BROWARD BOULEVARD
SUITE 1100
FORT LAUDERDALE, FL 33301-1100
954-356-7436
ROBIN_FARNSWORTH@FD.ORG
954-356-7556(Fax)

